<html>
<title> - A REVIEW OF BUILDING CODES AND MITIGATION EFFORTS TO HELP MINIMIZE THE COSTS ASSOCIATED WITH NATURAL DISASTERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






               A REVIEW OF BUILDING CODES AND MITIGATION
                   EFFORTS TO HELP MINIMIZE THE COSTS
                   ASSOCIATED WITH NATURAL DISASTERS

=======================================================================

                                (112-94)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-290 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman
TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,               Columbia
    Arkansas,                        HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
CHARLES J. ``CHUCK'' FLEISCHMANN,      (Ex Officio)
    Tennessee
JOHN L. MICA, Florida (Ex Officio)









                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Hon. Mario Diaz-Balart, a Representative in Congress from the 
  State of Florida...............................................     5
David Miller, Associate Administrator, Federal Insurance and 
  Mitigation Administration, Federal Emergency Management Agency.     5

                               Panel Two

Jim Mullen, President, National Emergency Management Association.    16
James J. Gianato, Director of Homeland Security and Emergency 
  Management, State of West Virginia.............................    16
Chief Hank C. Clemmensen, First Vice President, International 
  Association of Fire Chiefs.....................................    16
Chad Berginnis, CFM, Executive Director, Association of State 
  Floodplain Managers............................................    16
Julie A. Rochman, President and CEO, Insurance Institute for 
  Business and Home Safety (IBHS)................................    16
Rod Matthews, CPCU, P&C Operations Vice President, State Farm 
  Insurance Companies, testifying on behalf of the BuildStrong 
  Coalition......................................................    16

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Billy Long, of Missouri.....................................    37
Hon. Eleanor Holmes Norton, of the District of Columbia..........    39
Hon. Nick J. Rahall II, of West Virginia.........................    42

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Mario Diaz-Balart...........................................    47
David Miller.....................................................    50
Jim Mullen.......................................................    55
James J. Gianato.................................................    60
Chief Hank C. Clemmensen.........................................    68
Chad Berginnis, CFM..............................................    72
Julie A. Rochman.................................................    87
Rod Matthews, CPCU...............................................    91

                       SUBMISSIONS FOR THE RECORD

American Public Works Association, written statement of Diane 
  Linderman, PE, PWLF, President.................................    99
International Code Council, written statement....................   102
National Association of Home Builders, written statement.........   105
National Institute of Building Sciences, written statement of 
  Henry L. Green, Hon. AIA, President............................   108


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
                     A REVIEW OF BUILDING CODES AND
                  MITIGATION EFFORTS TO HELP MINIMIZE
                       THE COSTS ASSOCIATED WITH
                           NATURAL DISASTERS

                              ----------                              


                         TUESDAY, JULY 24, 2012

                  House of Representatives,
              Subcommittee on Economic Development,
         Public Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The committee will come to order.
    Today's hearing will focus on building codes and mitigation 
efforts to help minimize the cost associated with disaster.
    I want to thank our witnesses and, in particular, 
Representative Diaz-Balart, former Republican ranking member of 
this subcommittee and a leader on these issues. Last June 
Representative Diaz-Balart introduced H.R. 2069, the Safe 
Building Code Incentive Act. That legislation would provide 
States with an incentive to adopt statewide building codes by 
providing additional mitigation assistance.
    Why encourage mitigation in building codes? As a Member 
from California, I know firsthand the difference building codes 
can have in saving lives and reducing costs. With the threats 
of wildfires and earthquakes, good building code can mean the 
difference between life and death or whether homes remain 
standing or are completely destroyed.
    But it is not just anecdotal evidence that shows mitigation 
saves lives and reduces costs. Study after study has shown that 
investment in mitigation projects directly results in lower 
Federal disaster payments. For example, a study completed by 
the Congressional Budget Office in 2007 concluded that of 
nearly $500 million invested by pre-disaster mitigation grants 
between 2004 and 1007, $1.6 billion in future losses was 
avoided. That is, for every dollar spent three dollars were 
saved.
    The National Institute of Building Sciences also studied 
this issue and concluded that for each dollar spent four 
dollars were saved, and more recently, just this year a study 
commissioned by the National Association of Mutual Insurance 
Companies examined hurricane damages dating back to 1988. That 
study showed that since that time $67 billion of the $125 
billion paid by FEMA for disaster grants were related to 
hurricane and wind damage. That study concluded that had model 
building codes been in place, FEMA disaster payments would have 
been $13 billion, or almost 20 percent less.
    Mitigation of building codes, in particular, has proven to 
save lives and taxpayer money. It makes sense for FEMA to 
encourage such mitigation measures so that the costs of 
disasters are reduced. And for families and communities facing 
a disaster, minimizing the damage and protecting lives is 
critical.
    Again, I want to thank Representative Diaz-Balart for his 
work on this issue and the other witnesses here with us today.
    I now call on Ms. Norton for a brief introduction 
statement.
    Ms. Norton. Thank you, Mr. Chairman.
    And good morning. I want to join the chairman in welcoming 
today's witnesses to discuss the benefits of mitigation, and 
our building codes, in particular, may reduce costs associated 
with natural disasters.
    Over the past several years, the subcommittee has held 
several hearings on the importance and benefits of mitigation, 
including building codes. The committee has referred to studies 
by the National Institute of Building Sciences and the 
Congressional Budget Office, both of which found that 
mitigation saves taxpayers three to four dollars of every 
dollar invested.
    Mitigation does far more than save money. It reduces 
injuries and saves lives. The underlying question is what 
should Congress do to encourage more mitigation activities.
    FEMA has two mitigation programs, the Pre-disaster 
Mitigation Program and the Hazard Mitigation Program. Both 
programs are essential to saving lives and saving tax dollars 
by decreasing the amount of damage resulting from disasters.
    Over the past several years this subcommittee has explored 
other avenues for strengthening our Nation's efforts to limit 
future damages. One such avenue is strong building codes. It 
seems logical that if State and local communities have 
enforceable building codes in place when construction occurs, 
disaster related damages could decrease.
    I look forward to hearing from our colleagues and the 
former member of this committee, who was ranking member when I 
chaired the committee, Mr. Diaz-Balart, and I am pleased to be 
a co-sponsor of his bill, H.R. 2069, the Safe Building Code 
Incentive Act of 2011. This bill would provide an incentive for 
States to adopt and enforce model building codes that will 
result in less damage from disasters.
    Recently, the National Association of Mutual Insurance 
Companies released a study finding that FEMA would have saved 
$11 billion in hurricane damage payouts since 1988 if those 
damaged structures had been built to a model building code. 
While disasters always expose new avenues for mitigation after 
the fact, given the potential savings, Congress must do more to 
try to limit or prevent damage before it happens.
    An important benefit of mitigation that is often overlooked 
is the investment in communities. Mitigation can help stimulate 
the economy through increased economic development. Communities 
benefit when the effects of disasters can be eliminated and 
prevented. Providing disaster resilient structures and 
infrastructure will encourage communities, residents and 
businesses to stay or return to a community after a disaster.
    Finally, I must note that like the rest of the east coast, 
the District of Columbia was hit hard by the June storm with 
hurricane force winds that downed many power lines. I am 
interested in hearing more about mitigation and best practices 
to prevent or limit future power outages, particularly 
considering that the June storm was not the first time that 
this region had suffered mass power outages and, unfortunately, 
will probably not be the last if mitigation activities are not 
performed and if we do not learn more about how to mitigate 
these outages.
    I appreciate today's witnesses preparing testimony to help 
the committee think through this issue.
    Thank you, Mr. Chairman.
    Mr. Denham. Mr. Rahall for an opening statement.
    Mr. Rahall. Thank you, Mr. Chairman.
    I appreciate this opportunity, and I certainly welcome all 
of our witnesses to today's hearing, and particularly extend a 
special welcome to my friend and the head of our homeland 
security in West Virginia, Mr. Jimmy Gianato.
    Jimmy has a well-deserved reputation in West Virginia as a 
crisis manager, having served as a West Virginia Director of 
Homeland Security and Emergency Management since 2005. His 
dedication and expertise were critically important in helping 
our State to organize its response to the June 29th derecho 
storm that left residences and businesses in every county of my 
State, 680,000 electrical customers in total without power.
    Jimmy's tireless efforts are even more remarkable, given 
the loss of his own home in this came massive storm due to a 
lightning strike.
    Mr. Chairman, it should be disconcerting to this committee 
that more than 2 weeks after that monstrous storm has passed 
thousands of West Virginia residents and businesses were still 
without power. That means 2 weeks without air conditioning in 
extreme heat; 2 weeks without refrigeration, as food spoiled in 
family kitchens and grocery stores; 2 weeks of relying on 
battery powered radios, flashlights, candles, canned goods, and 
the generosity of friends and neighbors.
    But that is what we are about in West Virginia, coming 
together, helping each other, friends helping friends, 
neighbors helping neighbors, family helping family, strangers 
helping strangers. That is what we are about.
    In addition, the lack of generators, gas stations created 
fuel shortages, leaving many in long, panicking lines that 
lasted for days. The lack of generators at hospitals and 
nursing homes, along with disruptions of power to water and 
sewage treatment facilities left elderly and vulnerable 
residents sweltering and caretakers struggling to provide food, 
water and medicine, and in some cases oxygen.
    Small businesses were forced to close their doors for days, 
losing critical sales. Workers were unable to do their jobs, 
losing pay, and these already financially strapped families and 
business owners were hit with multiple unexpected costs, like 
the purchase of generators, if they could be found, made worse 
by the inability to get cash at banks that had no power.
    The Governor of West Virginia estimates that residents and 
businesses combined lost a total of at least $340 million. 
Emergency response officials, all of whom I commend for the 
manner in which they responded, are appropriately asking 
questions about the feasibility and cost-effectiveness of 
burying power lines and considering the potential need for 
generators to be locally available at gas stations, health care 
facilities, and other public and private locations.
    Concerns have been raised about the electrical grid and its 
capacity to endure emergencies like that devastating story, and 
I certainly associate with the comments just made by the 
gentlelady from DC. We must search for future methods of 
mitigating such power outages.
    Since 1995 over $58 million has been invested in West 
Virginia mitigation activities, primarily for flood prevention. 
In 2005 and 2007, two separate studies confirmed that hazard 
mitigation activities reduced future losses by three to four 
dollars for every dollar spent.
    This morning I am interested to learn about the types of 
mitigation activities that can be undertaken to prevent future 
power outages like that experienced on June 29th. Equally 
important, I want to know about potential steps that Congress 
should take to allow or encourage more mitigation activities to 
present future widespread power losses.
    So I look forward to Jimmy's testimony and the other 
witnesses this morning on how risk assessment, planning and 
construction may help reduce further damage and limited some of 
the turmoil caused by the massive power outages.
    Mr. Chairman, as I conclude, let me remind the committee 
that just yesterday the President did issue a disaster 
declaration to help communities, including every county in my 
district, with recovery expenses resulting from the June 29th 
story, making it the third such declaration for my State this 
year. While I am grateful that the administration acted so 
expeditiously and I commend FEMA for the manner in which they 
have reacted to this circumstance, as well as many others in 
the past, this declaration has opened the way for the public 
assistance.
    And I must note that the State is now in the process of 
seeking that individual assistance to help families and 
businesses hard hit by the storm. It is certainly my hope that 
this part of the process has moved along just as quickly so 
that West Virginians can soon receive the full measure of help 
they so badly need to recover from this devastating storm.
    Thank you, Mr. Chairman, and I look forward to today's 
witnesses.
    Mr. Denham. I ask unanimous consent that written testimony 
by Representative Billy Long, a member of the Transportation 
and Infrastructure Committee, be entered into the record.
    Without objection, so ordered.
    [Please refer to the table of contents section entitled, 
``Prepared Statements Submitted by Members of Congress'' for 
Hon. Long's statement.]
    Mr. Denham. I want to just read one brief paragraph of his 
statement. ``Joplin's tragedies should serve as a warning to 
all of our Nation's communities that despite modern technology 
advancement, we are still very much at the mercy of extreme 
natural events like hurricanes, tornadoes, earthquakes and 
floods. It is important that we continually work to improve the 
strength of our Nation's building, especially critical 
infrastructure in large buildings in order to reduce the damage 
and loss of life which can be caused by natural disasters. A 
little common sense should help take us a long way.''
    We will have two panels today. The first panel includes the 
Honorable Mario Diaz-Balart from Florida, Member of Congress, 
and Mr. David Miller, associate administrator, Federal 
Insurance and Mitigation Administration under FEMA.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    Since your written testimony has been made part of the 
record, the subcommittee would ask you to limit your testimony 
to 5 minutes.
    Mr. Diaz-Balart, you may proceed.

TESTIMONY OF THE HONORABLE MARIO DIAZ-BALART, A REPRESENTATIVE 
   IN CONGRESS FROM THE STATE OF FLORIDA; AND DAVID MILLER, 
   ASSOCIATE ADMINISTRATOR, FEDERAL INSURANCE AND MITIGATION 
      ADMINISTRATION, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman and 
Ranking Member Holmes Norton, for holding this important 
meeting. It is a privilege to be back at the T&I Committee.
    I served on this committee for 8 years, including the last 
2 as ranking member. So, again, I appreciate the work that you 
are doing.
    And as you said, my entire statement is in the record. So I 
will just hit some highlights if that is all right with you, 
Mr. Chairman.
    Let me first piggyback on what you just read from 
Congressman Billy Long. He is absolutely right. We know what 
the problem is, and we know that there are a number of things 
that we can do to help. Whether it is the wildfires in Colorado 
this summer, whether it is the tornadoes that wreaked havoc in 
Missouri, whether it is Hurricane Irene which pounded and 
flooded big parts of the east coast, Mother Nature continuously 
sends us telegrams, sends up wake up calls.
    The economic losses just this year, the first part of this 
year, of 2012, are already estimated to be at $14.6 billion. I 
mean, it is mind boggling. So given those facts and given also 
the fiscal climate that we face, it, frankly, does not make any 
sense just after a big storm just do another emergency 
supplemental.
    We know that these storms are going to continue to happen, 
and we also know that there are meaningful steps that we can 
take to promote sound strategies that save lives, that mitigate 
the devastation of future disasters, and by the way, ultimately 
also save taxpayers money.
    A commonsense approach, as the ranking member said just a 
little while ago, should be to adopt model building codes that 
will make our homes and our businesses more resistant to the 
forces of nature. Strong building codes are widely accepted in 
the emergency management community as being our best line of 
defense against these storms, these natural disasters.
    So while the evidence is overwhelming, most States have yet 
to either adopt strong building codes or, frankly, do not have 
mechanisms to enforce them if they have. So because of this, my 
colleagues, Representative Albio Sires, Mr. Richard Hanna from 
this committee, Steve Southerland and I have introduced H.R. 
2069, the Safe Building Code Incentive Act. It provides 
financial incentives for States to voluntarily adopt and 
enforce the model building codes, for the construction of new 
commercial and residential properties.
    This legislation, frankly, Mr. Chairman, just simply 
rewards good behavior. It rewards States that have those 
building codes and that enforces those building codes and 
provides incentives to do so for the States that have not done 
so. It is important to note, however, that this bill does not 
place mandates on States that do not currently or do not 
enforce statewide building codes.
    Mr. Chairman, next month is the 20th anniversary of 
Hurricane Andrew. That was a turning point for many of us in 
south Florida. It killed dozens. It was $26.5 billion in 
damage. In those days it is hard to believe, but in south 
Florida what we thought about when a hurricane was coming is we 
would tape our windows. We would put tape on the windows and we 
thought that would solve the problem.
    Well, we learned the hard way. After that, Florida became a 
leader in building codes, and because of that, research 
conducted by the Insurance Institute of Business and Home 
Safety, because of Florida's building codes, it reduced the 
severity of property damage resulting from Hurricane Charlie in 
2004 by more than 40 percent, 40 percent. And so think of what 
that means in money and also in disruption of people's lives 
and potentially saving people's lives.
    So the evidence is clear, Mr. Chairman. Building codes 
work. It is vital that we seize this opportunity to encourage 
States to adopt their building codes in a manner that will save 
lives, that will protect property, and ultimately also reduce 
taxpayers' exposure to natural disasters.
    I want to thank the BuildStrong Coalition for their 
advocacy on this important issue. They have been an incredible 
partner in promoting the needs for stronger building codes.
    And with that, Mr. Chairman, I want to thank you, sir, for 
your leadership, for this committee's leadership. This is a 
commonsense issue. We, I think, have a good piece of 
legislation that would go a long way.
    With that I yield back.
    Mr. Denham. Thank you for your testimony, Mr. Diaz-Balart.
    Mr. Miller, you proceed.
    Mr. Miller. Good morning, Chairman Denham, Ranking Member 
Norton, and distinguished members of the committee. My name is 
David Miller, and I am the associate administrator of the 
Federal Insurance and Mitigation Administration for the Federal 
Emergency Management Agency.
    In my testimony I will share an overview of FEMA's role in 
building codes and discuss current programs and initiatives 
used by the Agency to encourage mitigation efforts. Mitigation 
is the thread that permeates emergency management and links 
together preparedness response and recovery to reduce the loss 
of lives and damage to property resulting from disasters. 
Mitigation is about building stronger and more resilient 
communities.
    Mitigation efforts like building codes, flood-proofing 
requirements and earthquake design standards support rapid 
recovery from disasters and lessen the financial impact of 
disasters on the Nation. To achieve FIMA's vision of a Nation 
committed to a disaster resilient and sustainable future, we 
engage and partner with a broad spectrum of whole community 
stakeholders that include Federal, State, tribal, territorial, 
local, nonprofit and private sector organizations.
    FEMA works side by side with organizations like the 
International Code Council to support development of the 
International Codes, I-Codes, a family of building and fire 
safety codes which provide a complete set of coordinated, 
comprehensive and contemporary building and fire safety 
standards available for adoption by jurisdictions.
    Over the past 30 years, FEMA has worked with stakeholders 
from across the whole community to propose and gain adoption of 
numerous disaster-resistant provisions for earthquake, wind, 
and flood hazards in the Nation's model codes and standards. 
The Agency has championed hundreds of provisions now published 
by the American Society of Civil Engineers in their publication 
``Flood Resistant Design and Construction,'' which serves as 
the core reference standard for the International Building Code 
flood provisions.
    FEMA's role in building codes is likely to evolve given the 
recent passage of the Biggert-Waters Flood Insurance Reform Act 
of 2012, which directs the Agency to conduct a study and submit 
a report to Congress regarding the impact, effectiveness and 
feasibility of amending sections of the National Flood 
Insurance Act of 1968, to include widely used and nationally 
recognized building codes as part of the flood plain management 
criteria in that section of the Act.
    FEMA helps thousands of communities and tens of thousands 
of individuals avoid the suffering and economic loss associated 
with disaster damage through mitigation efforts like strong 
building codes and grants to strengthen the build environment. 
We encourage construction of safe rooms through grant programs 
such as the Hazard Mitigation Grant Program, and since 1999, 
have helped fund 1,334 community safe rooms in 20 States. This 
includes 235 safe rooms in 2011, a nearly 90-percent increase 
from the 124 rooms constructed with FEMA funding during 2010.
    According to a 2005 report by the Multihazard Mitigation 
Council, a public-private partnership designed to reduce the 
economic and social costs of natural hazards, FEMA grants 
disbursed between 1993 and 2003 to mitigate the effects of 
floods, hurricanes, tornadoes, and earthquakes are expected to 
save more than 220 lives and almost 4,700 injuries over 
approximately 50 years.
    Mitigation programs save the American public an estimated 
$3.4 billion annually through a strategic approach to natural 
hazard risk management. In 2011, FEMA's Hazard Mitigation 
Assistance (HMA) Programs helped local communities across the 
United States prepare for future disasters by providing up to 
$252 million in flood grant funds for mitigation activities 
affecting more than 1,300 properties. These measures are 
expected to result in potential losses avoided of approximately 
$502 million for flood programs.
    FEMA's HMA Programs are one way FEMA supports mitigation 
through a whole community approach. We are also working to 
implement Presidential Policy Directive 8, which aims to 
strengthen the security and resilience of the United States 
through systemic preparation for threats that pose the greatest 
risk to the security of the Nation. As part of PPD-8, FEMA and 
its interagency partners are developing the National Mitigation 
Framework and its companion, Federal Interagency Operation 
Plan, which support efforts to create a nationwide, holistic, 
integrated model for mitigation.
    In an effort to support development of building codes and 
engage State and local partners, FEMA has collaborated 
nationally to bring attention to the importance of the codes 
through a number of activities, including a Presidential 
proclamation declaring the month of May as National Building 
Safety Month in both 2011 and 2012; publishing articles 
highlighting the importance of disaster resistant building 
codes in technical journals and magazines; blog posts and 
postings on the FEMA Web site; and the creation of a Building 
Codes 101 toolkit for communities to use to adopt and enforce 
effective building codes.
    FEMA also uses a variety of programs to reach members of 
the whole community, including Risk Mapping, Assessment, and 
Planning, our Risk MAP Program, which strengthens State, 
tribal, territorial and local government capability by 
providing actionable risk information, mitigation planning 
tools, and risk communication outreach support. Risk MAP is the 
intelligence function that helps us better inform and reduce 
risk, and it's critical to our toolkit.
    FEMA coordinates with communities to use data identified 
through the Risk MAP processes to inform communities and 
citizens about their risk so they can take effective actions to 
reduce their risk. As you are aware, the Disaster Mitigation 
Act of 2000, as written by the committee, requires the 
development of State-approved hazard mitigation plans to pre-
identify projects for execution once funding becomes available 
through the post-disaster Hazard Mitigation Grant Program.
    The programs and initiatives I described here today help 
FEMA help our Nation to save lives and property through 
mitigation. Adoption and enforcement of effective building 
codes in local ordinances can further mitigation efforts and 
preserve lives and property that would otherwise be lost.
    Thank you, Mr. Chairman, for providing me this opportunity 
to appear before you today. I look forward to answering any 
questions you or other members of the committee may have.
    Mr. Denham. Mr. Diaz-Balart, in your testimony you 
highlight some of the issues that you saw with Hurricane 
Andrew. I remember very vividly after returning home from 
Desert Storm that was one of our deployments, was to send help 
from California. I know how devastating that was for your 
State.
    Can you describe the process Florida went through in 
evaluating the need for building codes and the work that you 
have done on this issue?
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Actually I was involved in the statewide building code 
effort when I was in the State legislature, and I will tell you 
that it was a heavy lift. There were some that because they had 
not gotten hit by a hurricane in recent years just said they 
did not want to do that. However, we succeeded, and I worked on 
that.
    We succeeded in first having a very strong building code in 
south Florida and southeast Florida. Then we were able to get 
the State to pretty much do the same thing.
    I will tell you, by the way, a little anecdote about that. 
There was a wonderful member of the Florida Senate who, 
frankly, I was working with in trying to get a statewide 
building code, and he refused to have his part of the State be 
part of it because he said that it was not necessary. They had 
not gotten hit by a storm in, you know, 100 years or whatever.
    So we exempted that part of the State, frankly. So we had a 
statewide building code with a gap.
    Well, then we had that year, I think, five hurricanes that 
hit the State of Florida. The legislature right after that 
closed that gap, and now we have one of the strongest building 
codes in the entire country.
    So it is a heavy lift, but I will tell you, as I think 
Congressman Billy Long said it very well, better than I could: 
Look. These things are going to happen, and the question is are 
we ready beforehand. Can we take some commonsense measures to 
avoid loss of life, loss of property damage, and also to save 
taxpayer money?
    Yes, we can, and this is one of those. I think the 
legislation that a number of us have is a commonsense approach 
because it is not punitive to the States. It encourages the 
States to do so. So that is one way to do that.
    Now, is it a heavy lift in some cases? Yes. That changes as 
soon as they get hit by a flood or a fire or a tornado. All of 
a sudden, the States realize that they can do better.
    Mr. Denham. And from your personal experience, do you have 
examples of homes or buildings that are compliant versus maybe 
in the same area or in different parts of the State where you 
did not have compliant homes, the differences in the damage and 
the assessment after the fact?
    Mr. Diaz-Balart. Sure. Actually the Insurance Institute has 
a facility where they test different buildings. Florida 
International University has a similar facility, what they call 
the Wall of Wind, I believe, where they test different 
facilities and different mitigations to see what works and what 
does not work.
    But we saw that very clearly in south Florida after 
Hurricane Andrew, and we have seen it after other storms. Those 
buildings, whether it is residential or commercial, that were 
built under higher standards, frankly, withstand the damage, 
and those that are not, well, they disappear.
    And so they rebuild. They have to be rebuilt. It costs 
insurers. It costs the taxpayers. It costs everyone a lot more 
money. So, look, this saves money and it saves lives in the 
long term.
    And what we do know is that every time one of these things 
happen, Congress gets together and we will then do a bill to 
make sure that we can fund whatever we need to fund to try to 
get those communities back and running. Does it not make sense 
if that is going to happen that we at least encourage those 
States to have stronger building codes so that we do not have 
to do that time after time after time? It is throwing good 
money after bad or bad money after good, however you want to 
call it.
    Yes, we have seen it in south Florida. It works. It has 
made a huge difference, and it is part of my statement today 
that after a recent storm, after looking at that, we were told 
that the stronger building codes reduced the damage by 40 
percent. That just pays for itself right there, Mr. Chairman.
    Mr. Denham. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Diaz-Balart, for returning to 
this subcommittee about your bill. I liked the way your bill 
was framed. That is why I was a co-sponsor, because it does 
seem to me that particularly in light of federalism, if the 
Federal Government wants you to do something, you offer 
incentives, as I recall. You get more hazard mitigation funds 
if you did a building code.
    I understand that there was a score on it. Somehow the CBO 
does not get it, this extraordinary saving, three to four 
dollars for every dollar invested. Is there a way to somehow 
enact your bill?
    I would hate to take the incentive out, but you and I know 
what happens when a bill gets scored. Is there some way to move 
your bill through the CBO scoring process so that it does not 
get stopped dead in its tracks, despite all of the information 
that has been collected. I mean, it is just the way scoring 
works.
    So have you considered another way to get our bill passed 
or to the floor?
    Mr. Diaz-Balart. Thank you. We understand why CBO has 
scored it the way they do. They do static scoring. They do not 
look at the savings. They look at what potentially more money 
could go out.
    Now, you know, all of this is subject to appropriations 
anyway, obviously, like most things. We are looking at ways 
that we can try to, again use the word ``mitigate'' that 
scoring; the problem being, however, that we do need to have an 
incentive for States to do so, and we are always looking at 
ways of doing that.
    Again, we understand the scoring problem, but the issue is 
this: We have actual evidence that this saves money. It 
actually saves money, but the ranking member knows and I know 
the frustration that she has had over the years with issues of 
leasing versus buying properties and how that is scored, and we 
know that that is, frankly, also a static score.
    We have to deal with that reality. We are looking at ways 
to do that. We have not yet come up with a good answer for 
that.
    Ms. Norton. Well, I think it is worth our trying to think 
of a way. If not incentives, I do not know. If we said you 
would not get any hazard mitigation funds if you did not do it, 
I guess that would not score. That is pretty draconian. Instead 
your bill is framed as a win-win, and we need a score.
    I do not know what to do about it, but I very much think it 
is worth thinking through, and I certainly would like to work 
with you to.
    Mr. Diaz-Balart. If I may, you know, it is interesting. If 
we were to do that obviously, you know, we would read about it.
    Ms. Norton. Yes.
    Mr. Diaz-Balart. However, you are right. It would score 
then with huge savings, and we all know that that would not 
happen; that after a storm, Congress would get together and we, 
of course, would fund that, which I think highlights how 
sometimes the scoring issue can be very frustrating.
    Ms. Norton. Mr. Miller, I had a question about this 
National Mitigation Framework because we have been sitting in 
the committee talking about this framework for almost 10 years, 
and when we passed the Homeland Security Act, there is a 
section in there that calls for strategies, mitigation 
strategies.
    Then in 2005, we had this extraordinary result. Congress 
mandated the study. We have the extraordinary results, and now 
we are 10 years later, and you are speaking about a National 
Mitigation Framework. I mean, it looks to me as though this has 
been 10 years in the development. So I have to ask you when 
will we have a framework.
    Mr. Miller. Well, ma'am, the framework is not in 
development, but is going through the final concurrence 
processes now. We hope to have it out in the next few days and 
be able to publish that.
    But I think as importantly as the framework itself, and 
getting that published after it goes through the concurrence 
process, is the Federal Interagency Operational Plan. We are 
putting that together now.
    The approach that we are taking is to look at a 
``mitigation all the time'' strategy instead of just after 
disasters, and look at the role all of Government can play 
along with our other partners in taking effective mitigation 
action. So it is not just a single focuse on the largest 
disaster. It is not just the flood focus we have seen in the 
past. We really want to broaden that, talk about the role all 
Government can play, not just the----
    Ms. Norton. Well, your testimony is that your National 
Mitigation Framework is about to be published.
    Mr. Miller. Yes, ma'am.
    Ms. Norton. In addition, you are calling on other agencies. 
What agencies? What kinds of agencies' help would FEMA elicit?
    Mr. Miller. Well, ma'am, we go across the broad Federal 
spectrum. When we look at mitigation activities and we really 
look at it writ large, all of the things that are possible, we 
involve agencies like USDA, the Department of Transportation, 
the Department of the Interior, Housing and Urban Development, 
Public Health. There are a number of mitigative actions that 
can be taken both in their current authorities as they exist 
and then what comes to play during a disaster declaration.
    Mr. Denham. Thank you.
    Mr. Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    I have got a question for Mr. Miller. From your personal 
experience at FEMA and previously in Iowa, could you share some 
examples of some specific cases in which building codes made a 
difference in terms of lives saved and damages reduced?
    Mr. Miller. I think there are any number of those. As we 
walk through it, in my own experience in Iowa, we looked at 
building code and building code enforcement. It is sporadic in 
Iowa. There is not a statewide building code enforcement. The 
various communities have adopted building codes but do not have 
a statewide enforcement.
    But as we looked at those that have done that, have built 
to that environment, and we looked at wind damage, we looked at 
damages from floodings; we have seen the benefits of that code 
and code enforcement. As far as specific lives saved, that I 
cannot talk to, but again, we look at the forensics of it.
    In FEMA, one of the things that interests me is that we 
actually go out with a mitigation assistance team to go out and 
look at the forensics and the performance of buildings after a 
disaster to see how well they perform. And the truth is that 
those that have been built to code perform much better than 
those that have not.
    So not only do we have the testing facility that 
Congressman Diaz-Balart talked about, but we actually have 
forensic testimony that tells us buildings have performed and 
performed well, especially those that are built to code.
    Mr. Crawford. Do you think that this bill would reduce 
Federal disaster costs and actually save taxpayer dollars?
    Mr. Miller. I do. I think time and time again as we go 
through this and, again, look at the forensics and the proof 
before us, look at the testing that is done, the testimony of 
others, we see time and again that the adoption of building 
codes and the enforcement of building codes is a good value 
statement to our communities. It makes them more resilient. It 
saves lives, and it protects property and people.
    Mr. Crawford. Thank you, Mr. Miller.
    The last question to Congressman Diaz-Balart.
    Just to be clear, and if I am repeating myself forgive me, 
does the Safe Building Code Incentive Act place mandates on 
States?
    Mr. Diaz-Balart. It does not. It gives incentives to the 
States.
    Mr. Crawford. Thank you. Thank you, sir.
    Mr. Diaz-Balart. And that is one of the issues that we have 
with the scoring, but yes, I think I am one of those who does 
not like mandating things to the State. So this is a different 
approach to that.
    Mr. Crawford. I appreciate it. Thank you.
    I yield back.
    Mr. Denham. Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman.
    Administrator Miller, let me begin by highly complimenting 
you and FEMA for the manner in which you have responded to our 
crises in West Virginia, not only the recent storm, but many in 
the past. You know, you have been in our State. You have 
partnered with our State after numerous storms, been there 
within days after a disaster has hit, and many in the past have 
grateful words of praise for FEMA. Many parents sometimes say 
they want to have the nickname of FEMA for their newborn child 
that has been born out of the storm. So we do compliment you 
and thank you for all that assistance.
    You heard my opening comments, and I was on the ground 
after this recent disaster, as I am after every one that 
occurs, personally experiencing with each family the damages 
and the turmoil through which they are traveling.
    This latest one in which we had such severe power outages 
does not fit the classical definition of traditional sources of 
damage like a food would. A flood destroys one's home. You have 
figures immediately you can put on the value of that home. When 
you have power outages, as you know, it is a little different. 
You have families that have to go to hotels in order to 
maintain their dialysis machine to keep their medical supply 
going, and oftentimes these families are in the middle class. 
They have no other form of assistance available. Their income 
is above a certain level, and they are certainly not in the 
upper class. So they are in that middle class where they often 
fall through the crack as far as receiving help that they need 
after such a disaster.
    We thank you for what you have declared just yesterday in 
providing public assistance to our communities. That will help 
a great deal, and my question is headed toward the individual 
assistance that we now need. Even though we may not fit the 
traditional criteria or figures for such an individual disaster 
declaration, will you give that same sense of urgency to this 
individual request that our Governor and you will hear from our 
Homeland Security Director in a few moments, when all of the 
figures will be before you?
    But will you give that the same sense of urgency that you 
have, and we thank you for, the Community Assistance 
Declaration?
    Mr. Miller. I believe we will, sir. I have not talked to 
Administrator Fugate about this issue, but knowing his feelings 
about how we respond to and how we help the survivors of 
disasters, I am sure it will receive our full consideration as 
we move it forward.
    You know, it is the part that we look at. It is one thing 
to affect communities, but how it affects individuals I know 
weighs on his mind considerably, and he will give it the 
fullest consideration.
    Mr. Rahall. I appreciate that because, as I said, you know, 
you sometimes have to look beyond the cold, hard figures as to 
what the suffering was really all about.
    While it is up to each State, of course, to prepare and 
submit a hazard mitigation plan to address such State hazards, 
what type of outreach does FEMA do to distribute best practices 
to the States?
    Mr. Miller. Actually, we do it in a number of areas, and we 
are looking at broadening that dialogue. When I spoke in my 
testimony of Risk MAP, the first thing that we really want to 
do is enter a dialogue with the community about risk. Risk MAP 
is based primarily on flooding, but it is not the only dialogue 
we want to have.
    We have talked about how we brought in other sectors of 
FEMA to talk about overall risk. One of the things that is 
going to drive the process as we issue our grants and as we do 
mapping is what we call THIRA, the threats and hazards 
identification and risk assessment, that will happen.
    It is another opportunity to have a conversation about the 
total risk facing a community and what they can do to buy down 
that risk either by effective building codes or by taking other 
measures in their community. We think there is some real 
opportunity there, and we look forward to engaging the whole 
community.
    I think in the past we have focused oftentimes on talking 
to emergency managers and not talking to everybody in the 
community. I think the real effort here will be to talk about 
it in terms of the value to the community of taking effective 
measures before the disaster to enforce codes and standards 
that will help them mitigate against the next event. That has a 
benefit over a broad array, not just the direct benefit about 
avoiding disaster loss.
    Mr. Rahall. Thank you.
    Mr. Hanna.
    Mr. Hanna. Thank you, Chairman.
    Currently there is 15 percent allowance for mitigation. We 
are going to raise it to 19 percent. The Government is full of 
incentive plans for hiring people, filling any number of things 
that look good on paper and work well in our imaginations, but 
what specifically makes anybody think, and I am on board for 
this incidentally; what tools do we have to make us believe 
that municipalities and State governments after they have done 
their cost-benefit analysis will actually pull that lever to 
direct this money towards building codes as opposed to other 
things?
    So the question is: did they do it very well at 15 percent 
and will 19 percent increase that in your opinion? And 
generally do States look at changes in their codes as a way to 
use mitigation money?
    Anybody.
    Mr. Miller. From my experience they do, and they are 
looking for the incentives to allow them to move forward. As 
you stated in the Hazard Mitigation Plan, we offer 15 percent 
for those that have a plan in force. We offer 20 percent to 
those who have an enhanced plan, and there are a handful of 
States that have enhanced plans.
    But I think as we move forward in communities and we look 
at that 4 percent adjustment and an incentive, anything that 
allows us to move to building codes, I think those that have 
lived in the margins and question the values of building codes, 
perhaps this will push them over the edge.
    We have done the other efforts. We have done the community 
outreach, the things that that we need to do. We have worked 
with the code councils. We have talked to a number of groups 
about the performance of building codes, and right now I think 
we are at about 51 percent of the communities that have 
building codes.
    What I do not know is the level of enforcement, the energy 
by which they enforce those codes across the United States, but 
we do know they perform and they perform well. I think an 
incentive that allows them to move forward is certainly 
something that States would entertain and need, especially in 
these tough economic times. To tip that edge.
    Mr. Hanna. Do you feel as though you may need it within the 
context of this bill a way to formalize that incentive?
    I think part of it is the discussion, and I will defer a 
little bit to the States. I know they are on your panel today, 
on what tips them and moves over the edge. I have some 
experience in our own State. I know part of the question is the 
cost of compliance and moving forward and what it does to the 
overall economic stability of an area and how they develop and 
compete.
    But I think, again, for us it becomes the value judgment. 
As far as implementing it, should the law pass, I think that is 
a fairly straightforward implementation for us, much like we do 
the other incentives in the bill, including the enhanced 
planning status.
    I think the question is, as I recall, the bill asked for 
those codes to be submitted to the State. We would have to work 
with the code and other committees to insure that it is the 
newest, up-to-date code. There are some things that we would 
have to do to administer the program within FEMA.
    Mr. Hanna. And you think 4 percent is a reasonable place to 
go with this?
    Mr. Miller. I would not question that, sir. I mean, we have 
not done an effective study to say what the real incentive 
should be and what the tipping point is. You know, we will have 
some costs for administration, but again, I think moving in a 
direction that allows us to move building codes forward is the 
right direction.
    Mr. Hanna. Have you seen some marginal changes in behavior 
before as the incentives changed?
    Mr. Miller. We have, but with incentives a lot of times 
comes requirement, and I think there needs to be some balance 
there. I do not know that we will know the full effect of that 
until we try it out.
    I will give you the for-instance. As we looked at it in 
enhanced States, and we talked about the 5-percent increase 
between 15 and 20 percent for States that have an enhanced 
plan, frankly, we have held, I think, in about 10 States that 
incentive for a long time. It is a fairly arduous requirement 
on States to have an enhanced plan and to administer that.
    So as we look at these things and at incentives, the 
question will be relative to building codes how arduous are 
they; what is our implementation; what is the cost of 
compliance; how do we move forward. Again, the general feeling 
is incentives work, but to the degree that they will work, I am 
sure all of these questions will have to be answered.
    Mr. Hanna. My time has expired. Thank you.
    Mr. Denham. I would like to thank this first panel for your 
testimony today, and specifically Representative Diaz-Balart 
for your efforts not only on the State level but the fact that 
you are able to save your State money and save lives. But now 
certainly with your bill here being able to stretch our FEMA 
dollar and save lives from a national perspective is something 
that you should be commended for.
    So thank you for your efforts and thank you for your 
testimony today.
    And if our second panel would take the witness stand here, 
today's witnesses include Mr. Jim Mullen, president, National 
Emergency Management Association; Mr. Jimmy Gianato, director 
of homeland security and emergency management, State of West 
Virginia; Chief Hank C. Clemmensen, first vice president, 
International Association of Fire Chiefs; Mr. Chad Berginnis, 
executive director, Association of State Floodplain Managers; 
Ms. Julie Rochman, president and CEO, Insurance Institute for 
Business and Home Safety; and Mr. Rod Matthews, CPCU, P&C 
operations vice president, State Farm Insurance Companies.
    I would like to welcome our witnesses here with us today. I 
ask unanimous consent that our witnesses' full statements be 
included in the record.
    Without objection so ordered.
    Since your written testimony has been made part of the 
record, the subcommittee would request that you limit your 
testimony to 5 minutes.
    Mr. Mullen, you may proceed. If you could, pull your 
microphone a little closer to you and push the on button.

    TESTIMONY OF JIM MULLEN, PRESIDENT, NATIONAL EMERGENCY 
MANAGEMENT ASSOCIATION; JAMES J. GIANATO, DIRECTOR OF HOMELAND 
  SECURITY AND EMERGENCY MANAGEMENT, STATE OF WEST VIRGINIA; 
 CHIEF HANK C. CLEMMENSEN, FIRST VICE PRESIDENT, INTERNATIONAL 
  ASSOCIATION OF FIRE CHIEFS; CHAD BERGINNIS, CFM, EXECUTIVE 
 DIRECTOR, ASSOCIATION OF STATE FLOODPLAIN MANAGERS; JULIE A. 
 ROCHMAN, PRESIDENT AND CEO, INSURANCE INSTITUTE FOR BUSINESS 
AND HOME SAFETY (IBHS); AND ROD MATTHEWS, CPCU, P&C OPERATIONS 
 VICE PRESIDENT, STATE FARM INSURANCE COMPANIES, TESTIFYING ON 
              BEHALF OF THE BUILDSTRONG COALITION

    Mr. Mullen. Good morning, Chairman, Ranking Member Norton, 
and distinguished members of the subcommittee, my name is Jim 
Mullen, and I am the director of Washington State Emergency 
Management Division. Thank you for the opportunity to present 
testimony today as the president of the National Emergency 
Management Association.
    NEMA represents State Emergency Management Director of the 
50 States, District of Columbia, and the U.S. territories.
    Few professions lend themselves to sports metaphors like 
the emergency management does. One that I think is particularly 
appropriate is offense wins games, defense wins championships. 
In our case, response and recovery addresses short-term goals 
following a disaster, but mitigation, like defense, is critical 
to winning in the long-term battle for disaster resistant 
communities.
    The emergency management community plays a large role in 
communicating the message of mitigation, and what is that 
message? We mitigate so that preparedness is based on the best 
assessment of threats and hazards. We prepare because we cannot 
mitigate every threat, and we respond because mitigation and 
preparedness cannot completely eliminate risk, and we recover 
because it is important that we return to what our new normal 
has become.
    In the wake of a disaster we then resume mitigation efforts 
all over again. The cycle of emergency management begins and 
ends with mitigation.
    At its core, mitigation is easy to justify, and it seems 
like common sense. In practice, however, challenges still 
exist. The current funding structure for mitigation limits full 
integration and implementation of a National Mitigation 
Strategy.
    FEMA has mitigation assistance grant programs to provide 
funding for pre and post disaster mitigation. While funding 
levels for the other HMA grants are set, Hazard Mitigation 
Grant Program funds are only available to jurisdictions that 
experience a major disaster declaration and levels are 
determined as a percentage of their overall Federal assistance.
    In examining funding history over the past 10 years, it 
becomes evident that HMGP funding far outweighs investment in 
the four other programs. It cannot be overstated how crucial 
mitigation is post disaster to address critical points of 
failure, but instead of capitalizing on the 1 to 3 ratio of 
dollars invested to dollars saved on recovery costs, the 
Federal Government is missing the opportunity to focus money on 
the frontend instead of on the backend.
    Lack of effective communication is also a barrier to 
mitigation. For example, the private sector makes mitigation 
decisions all the time, but they do not always call it 
mitigation. Businesses take actions to invest in long-term 
profitability and eliminate or lessen future losses. Mitigation 
makes good business sense, and the private sector is able to 
communicate their motives to corporate and community 
stakeholders.
    In order to achieve the goals of mitigation as a national 
strategy, there are actions that must be taken. First, we must 
imbed mitigation and policy development as broadly as possible. 
Risk reduction policies and specific hazard mitigation measures 
are not the sole domain of any single agency, discipline, or 
profession. Policymakers in many domains could advance the 
reduction of risk in ways outside their traditional scope of 
responsibility.
    Secondly, we must educate Federal, State and local 
officials. Local elected and appointed officials make tough 
decisions and weigh costs versus benefits every day to make 
wise policy decisions where mitigation investments are 
concerned. They deserve to be educated about the threats, 
risks, benefits, and costs as fully as possible.
    Third, we should emphasize incentive, not punitive 
mitigation policies. Mitigation can be encouraged and rewarded 
or it can be mandated with punishment for the noncompliant.
    Policymakers should consider funding programs designed to 
reward effective land use and building design actions, 
including building codes and ordinances, and flexibility is 
needed to realize that one size does not fit all.
    And, lastly, there should be a focus on measuring and 
capturing success, along with some enhanced ability to measure 
the effectiveness of mitigation. Strategies that publicize 
those successes must also be developed, exploring ways to 
measure the long-term benefits of mitigation on tourism, the 
environment and economy, and enhance the attractiveness of 
mitigation efforts.
    In order to encourage investment and promote the goals of 
mitigation activities on the State and local level, specific 
recommendations should be considered. Better coordination is 
needed between Federal agencies with roles in mitigation. No 
single agency or level of Government sector of business or 
individual community can achieve successful mitigation on its 
own. Mitigation must be connected to other programs. Mitigation 
objectives for specific projects can differ among individuals, 
but if the same project supports multiple desired outcomes, 
success and achievement are increased.
    To support a National Mitigation Strategy, we must rethink 
the Federal grant structure. The current mitigation structure 
is centered on the Federal Government. Local governments and 
communities must find a way to illustrate their commitment to 
mitigation and demand partnerships to leverage their 
investment.
    The funding that comes down from the Federal Government 
must supplement, not supplant the work already being done at 
the State and local level. The path to successful 
implementation of a national strategy is filled with 
challenges, but there are numerous opportunities for effective 
collaboration between all mitigation stakeholders.
    NEMA and our partners remain committed to advancing the 
message of mitigation and furthering the core goals of risk 
reduction and loss avoidance.
    Thank you for the opportunity to testify, and I look 
forward to answering your questions.
    Mr. Gianato. Good morning, Chairman Denham, Congresswoman 
Norton, distinguished members of the committee. Thank you for 
the opportunity to appear before before you today on behalf of 
the citizens of West Virginia and all Americans that were so 
affected by this devastating storm known as the derecho.
    I have been the director of homeland security and emergency 
management in the State of West Virginia since 2005 and 
previously served for 22 years as a local county and State 
official dealing with numerous disasters. I can honestly report 
to you that I have never witnessed anything of this magnitude 
with the impact it had on our State. The widespread devastation 
the storm produced in West Virginia was without precedent.
    The June 29th derecho was one of the most destructive, fast 
moving severe thunder storms in North American history. The 
massive storm brought straight line winds of over 100 miles per 
hour and traveled close to 700 miles in just 10 hours. It 
devastated 10 States, left over 4 million homes and businesses 
without electricity, and resulted in the deaths of at least 22 
people.
    In West Virginia we realized almost immediately that the 
damage would be particularly heavy. Before 10:00 p.m. on June 
29th, 2012, Governor Tomblin had already declared a state of 
emergency for the entire State of West Virginia. I had 
activated the State Emergency Operations Center and Adjutant 
General Hoyer had activated the West Virginia National Guard's 
Joint Operations Center and the first complement of our 
soldiers and airmen.
    For West Virginia the major impact from the storm was the 
loss of electrical power, which at its peak included almost 
700,000 customers or roughly 1.6 million citizens. The power 
outages result in as many as 87 public community water systems 
going offline, as well as hundreds of families depending on 
privately owned water wells without power to run their pumps, 
leaving tens of thousands of mountaineers without water.
    The suffering from this lack of power and water was 
compounded by the record heat wave that swept the country 
during this outage period. With high humidity and a heat index 
touching 110 degrees, our most vulnerable populations were 
particularly at risk.
    The lack of power impacted much more than the comfort of an 
air conditioner. With most gas stations inoperable, the few 
that had power saw lines of over 2 hours long. Grocery stores 
lost the ability to keep perishable foods and lost most 
business for over a week.
    Pharmacies were unable to dispense badly needed 
medications. Cell phone towers became inoperative, and at least 
50 percent of the State's hospitals were on generator power.
    Immediately we set to coordinate one of the largest 
response efforts in West Virginia history. Governor Tomblin 
took swift action in activating the State Emergency Operations 
Plan and requested Federal assistance as soon as the magnitude 
of the storm was realized. Hundreds of State employees from 
almost every State agency reported for duty ready to assist 
their fellow citizens. At least 50 percent of our Division of 
Highways' support was solely dedicated to disaster response, 
clearing 1,846 roads and delivering fuel to all of our 
counties.
    Our Department of Health and Human Resources activated its 
Health Command Center to assist at one time during the storm up 
to 50 percent of the hospitals reporting on generator power. 
Thirty-eight long-term health care facilities were on backup 
power. Seventy-nine percent of the community water systems in 
the State were impacted by the storm, and at least 146 used 
generators in one or more water plants.
    Another major issue encountered during the event was the 
lack of our ability to acquire oxygen for patients who used 
concentrators. Lack of power caused them to switch to bottled 
oxygen, which was in short supply, and local home health 
providers were unable to meet the demand.
    FEMA also assisted us in acquiring additional oxygen. I 
have attached copies of the DHHR report to my written 
testimony, but as with many agencies, they are still gathering 
data related to this event.
    The FEMA response to this disaster was immediate. From the 
time the Governor made the request to FEMA at about 3:00 in the 
morning, relief supplies and personnel began arriving within 6 
hours. Throughout the duration of the event, FEMA personnel 
were extremely helpful and responsive to our needs.
    To give you an idea of the supplies provided, almost 2.6 
million liters of water were provided by FEMA, over 669,000 
meals, 97 generators and 20 infant kits.
    The West Virginia Emergency Operations Center focused its 
immediate response on identifying initial impacts and to trying 
to determine what needs will be required. Even with the large 
volume of communications not functioning, our statewide Public 
Safety Radio Network provided us a solid and reliable 
communications backbone.
    By Saturday, June 30th, the next day of the storm, we knew 
that 53 of our 55 counties had been impacted. Among the most 
impressive response efforts came from our citizen soldiers and 
airmen of the West Virginia National Guard. Over 700 Guardsmen 
disbursed throughout the State to provide life sustaining 
supplies and even door-to-door checks.
    The support from the private sector was tremendous. Our 
interaction with agencies, such as the West Virginia Oil 
Marketers and Grocers Association, were a tremendous support 
system for our State. This was just one example of the private 
sector stepping up to assist.
    I appreciate the opportunity to share with you some of what 
we have done in West Virginia to deal with this event. I have 
submitted written testimony to you, and I will be glad to 
answer any questions at the end.
    Again, thank you for the opportunity to be here today.
    Mr. Denham. Thank you.
    Chief Clemmensen.
    Chief Clemmensen. Good morning, Chairman Denham, Ranking 
Member Norton and members of the subcommittee. I am Chief Hank 
Clemmensen of the Palatine Rural Fire Protection District 
located in Inverness, Illinois, and the first vice president of 
the International Association of Fire Chiefs.
    I want to thank the committee for this opportunity to 
represent the fire and emergency service's support for building 
codes and effective hazard mitigation.
    America suffers from one of the worst fire problems in the 
civilized world. In 2010, there were more than 1.3 million 
fires in America which resulted in the deaths of more than 
3,100 Americans and more than 17,000 injuries.
    The economic cost of these fires is equally compelling. For 
example, the economic loss due to fires in 2009 was $16.1 
billion. The total cost for fire that year, including insurance 
costs and local fire department expenditures, was $331 billion. 
This amount represents approximately 2.3 percent of the 
national gross domestic product.
    Model building codes and fire codes play a key role in 
mitigating the damage done by fires, windstorms, earthquakes 
and other disasters. They are designed using a consensus-driven 
process that includes all of the stakeholders. The fire service 
participates in the development of these codes to ensure that 
modern construction is safe for the public and first 
responders.
    There is strong evidence that building and fire codes 
prevent the tragic loss caused by extreme weather and national 
disasters. For example, a 2009 World Bank report demonstrated 
that the strict adherence to tough zoning and building codes 
resulted in greatly reduced fatalities in California as 
compared to earthquakes in other countries. A 2012 report by 
the IBHS found that the adoption of high wind provisions in 
residential buildings reduced the frequency of claims after a 
hurricane by 60 percent and the severity of such claims by 42 
percent.
    Unfortunately, some jurisdictions do not adopt model 
building codes or update them until after a natural disaster 
occurs. In Illinois, there was a greater focus on adopting 
sprinkler codes for schools after the Our Lady of Angels fire 
in 1958. Sadly, more than 90 students and teachers perished in 
that fire before sprinkler codes were changed.
    The IAFC believes that H.R. 2069 will encourage States to 
adopt the most current commercial and residential building 
codes proactively. By adding a 4-percent incentive to FEMA's 
Hazard Mitigation Grant Program, the bill will create a 
virtuous cycle for States to receive more funds to protect 
their citizens.
    As the subcommittee begins to consider this legislation, we 
would like to raise three points for your consideration: (1) To 
qualify for the 4-percent incentive, States should not be able 
to opt out of or reduce substantial code requirements. For 
example, the 2009 edition of the International Residential Code 
included a requirement for residential sprinklers. Many States 
opted out of this requirement when adopting the code.
    The IAFC is greatly concerned about this decision since 
there is clear evidence that fire sprinklers save lives.
    A report by Scottsdale, Arizona, found that one or two 
sprinkler heads controlled or extinguished the fire 92 percent 
of the time. Because of their proven efficiency, the U.S. Fire 
Administration recommends the installation of fire sprinklers 
in residences.
    The decision to opt out of residential fire sprinkler 
requirements presents a serious problem for public safety. 
Sixty-six percent of all civilian fire injuries from 2008 to 
2010 resulted from fires in residential buildings. So, the 
decision to opt out of the residential sprinkler requirements 
will do nothing to mitigate two-thirds of the casualties caused 
by fires.
    (2) Local jurisdictions should be allowed the latitude to 
adopt more stringent codes than the State minimum code 
requires. Especially in large States, the various regions in a 
State may face different threats. For example, the wind 
resistance requirements for buildings in south Florida and the 
Panhandle vary due to the threat of hurricanes. When 
implementing H.R. 2069, local jurisdictions should be allowed 
to strengthen their requirements to address all hazards.
    (3) The legislation should also include both building codes 
and fire codes. Both building codes and fire codes work 
together in tandem. In many communities a building code 
addresses design and construction of a building while the fire 
codes address specific life safety hazards associated with the 
facility's use. The adoption of both building codes and fire 
codes at the State level will ensure that there is a minimum 
level of fire protection in local communities across the 
Nation.
    Finally, on behalf of the America's fire and EMS chiefs, I 
would like to thank you for holding today's hearing. Model 
building and fire codes play an important role in mitigating 
the effects of fire and other natural disasters. H.R. 2069 
proposes an incentive that will improve the safety of the 
American public and first responders.
    We urge Congress to consider this legislation and look 
forward to working with the subcommittee.
    Thank you very much.
    Mr. Denham. Thank you.
    Mr. Berginnis.
    Mr. Berginnis. Good morning, Chairman Denham, Ranking 
Member Norton, and distinguished members of the subcommittee. I 
am Chad Berginnis, executive director of the Association of 
State Floodplain Managers. We are pleased to offer our thoughts 
related to hazard mitigation and building codes.
    ASFPM's 14,000 members and 33 chapters are the country's 
practitioners who administer flood hazard mitigation programs, 
land use and building codes on a daily basis.
    2011 was a record-setting year in the United States. Data 
indicated that 2011 resulted in at least $10 billion in flood 
damages. The Nation experienced 14 disasters from natural 
hazards where the cost of each exceeded $1 billion, and 
President Obama issued a record 99 major disaster declarations.
    As the cost of disasters continues to rise, Governments and 
citizens must find ways to reduce cost from natural hazards. 
Hazard mitigation means taking a sustainable action to reduce 
or eliminate long-term risks from hazards and their effects. 
There is a variety of mitigation tools though, including 
planning, building codes, land use standards, planning, hazard 
insurance, mitigation grant programs, protection of critical 
facilities, infrastructure protection, and high engineered 
structural measures.
    Hazard mitigation also saves money. The 1993, Mississippi 
River flood affected hundreds of homes and caused several 
million dollars of damage in the small city of Arnold, 
Missouri. In 1995, a large number of at-risk homes were bought, 
demolished, and the remaining property was deed restricted as 
open space.
    By 2008, over 322 homes had been acquired. When flooding 
occurred that year, a total of $12,000 in damages resulted. 
Today flooding is mostly an inconvenience in Arnold, and the 
long-term cost to the U.S. taxpayer is essentially zero.
    Mitigation grant projects are an important tool used 
nationwide, especially in older communities that have existing 
inventories of at-risk buildings and infrastructure. Demand for 
these programs far exceeds available resources. A poll of State 
hazard mitigation officers found that current demand ranges 
anywhere from 3 to 10 times available funding.
    Mitigation practitioners in the Nation though are concerned 
about the administration's proposed FY 2013 budget to zero out 
the Pre-disaster Mitigation Program, and ASFPM appreciates 
Congress' expression of support of that program through 
restoration of some of those funds. PDM is a significant source 
of mitigation funds for mitigation planning, and it is not 
redundant to other sources that may be available after a 
declared disaster.
    In fact, over half of the States depend upon PDM for 
planning assistance.
    ASFPM also thinks that building codes can play an effective 
role in hazard mitigation, and there are six key considerations 
for any legislation addressing building codes and mitigations. 
First, State adoption does not necessarily equal all 
communities adopting the same code. As the previous panelists 
had indicated, there is the ability to opt out of codes, and 
the code adoption process is voluntary and variable.
    Many States do not require local jurisdictions to adopt 
building codes, and others allow communities to adopt a 
building code of their choice. Ohio serves to illustrate this 
point well. The States of Ohio adopted international codes. In 
fact, they are required in all communities. Those codes are 
required for three-plus family, residential, commercial and 
industrial buildings.
    However, the Ohio residential code is optional in 
communities for one to three family dwellings. Furthermore in 
2012, when the Ohio residential code was updated, controversial 
provisions of the International Residential Code were omitted.
    Second, State adoption does not necessarily equal 
enforcement of those codes. Over the past 25 years, FEMA post 
event reports find that the construction does not meet targeted 
building code performance. Anecdotally, many local flood plain 
managers indicate that code enforcement can be difficult. 
Everything from political pressure, misuse of the variance 
process, to other inadequate legal counsel can impact a 
community's ability to enforce its regulations.
    Third, model codes are consistent with minimum national 
standards, but do the standards achieve the needed amount of 
loss reduction? While flood provisions of the model building 
codes are consistent with the National Flood Insurance Program 
standards, minimum standards of the NFIP have not been updated 
in over 25 years, and much loss experience has been learned.
    Are these minimum standards enough? Steps should be taken 
to encourage or incent States and/or communities with unique 
hazards or long-term vision to implement standards beyond those 
in the international codes.
    An effective approach must include both incentives and the 
elimination of perverse disincentives. Today's communities and 
States get rewarded for doing little or nothing to increase 
their resiliency. If a community is not willing to do the day-
to-day mitigation through codes and land use, why should even 
they be eligible for programs such as HMGP, public assistance 
or disaster assistance in general?
    Fifth, local capacity is key to successful implementation 
of building codes.
    And finally, effective land use and planning must work in 
concert with building codes to achieve overall community 
resiliency.
    ASFPM appreciates the committee's interest in and 
encouraging adoption and enforcement of statewide building 
codes. H.R. 2069 is a good step in the right direction through 
offering an incentive for adoption enforcement of nationally 
recognized building codes.
    Thank you.
    Mr. Denham. Thank you.
    Ms. Rochman, and I understand you have a brief video.
    Ms. Rochman. We do, yes, sir. We will show it in the middle 
of the testimony if that is all right.
    Mr. Denham. Perfect. Thank you.
    Ms. Rochman. Members of the subcommittee, thank you for the 
opportunity to speak with you today regarding the importance of 
enacting and enforcing strong statewide building codes. 
Chairman Denham and Ranking Member Norton, thank you for being 
from jurisdictions with good, strong building codes.
    I am Julie Rochman. I am the president and CEO of the 
Insurance Institute for Business and Home Safety, or IBHS. IBHS 
is a 501(c)(3) organization wholly supported by the property 
insurance industry. Our mission is to conduct objective 
research to identify and promote effective actions and 
strengthen homes, businesses and communities against natural 
disasters and other causes of loss.
    We believe that because every region of this country is 
vulnerable to one or more potentially devastating natural 
hazard, improving disaster mitigation, preparedness response 
and recovery must be a national priority.
    The centerpiece of our research program is our unique IBHS 
Research Center in South Carolina. Using a massive 105-fan 
array, and each of these fans has 350 horsepower, and other 
specialized equipment, we can recreate a variety of highly 
realistic wind, rain, fire and hail events. Only IBHS can look 
at full-scale structures as a system. The ability to mimic 
Mother Nature in a controlled, repeatable environment allows 
IBHS to do several things: to demonstrate the effectiveness and 
financial value of stronger building codes and better built 
structures; to identify different kinds of solutions to 
building vulnerabilities; to strengthen the relationship 
between theoretical and real building performance; and to 
validate and improve current scientific bases for designing and 
installing building products and systems.
    In addition to laboratory research, IGHS conducts post 
disaster field research. In one such study following Hurricane 
Charlie, which has been referenced a few times here today 
already, we found that homes built to then modern codes 
suffered 40 percent less severe damage and 60 percent less 
frequent damage than homes built to older codes.
    These are not marginal rates of return on a relative modest 
investment in codes. These are huge rates of return. 
Unfortunately, disasters such as Hurricane Andrew have shown 
that lax code enforcement of otherwise effective building codes 
needlessly and greatly increases total damage. Strong safety 
requirements were in place in southeast Florida in 1992, but 
local officials failed to make sure that they actually were 
followed during the construction process.
    Recognizing the importance of comprehensive building code 
safety systems, IBHS recently completed a first of its kind 
Rating the States Report, examining regulations and processes 
governing residential construction in the 18 States most 
vulnerable to hurricanes from Texas to Maine. The report looks 
at adoption, enforcement of strong statewide building codes, as 
well as code official certification and training, and 
contractor and subcontractor licensing.
    Employing a 100-point scale with 100 being the best, the 
quality of code systems ranged from Florida and Virginia up at 
95 points down to Mississippi which scored only 4 points. The 
purpose of this analysis was to shine a much needed spotlight 
on how States can take specific steps to better protect their 
citizens.
    In order to fully understand how real world performance 
compares to technical requirements, IBHS has conducted several 
unique, full-scale tests in our laboratory of houses. These 
tests examine the way structures work as a system either to 
withstand or to succumb to natural forces.
    Mr. Chairman, now I would like to show the subcommittee a 
quick video. It is about 40 seconds, from one of these tests. 
This is from the fall of 2010, where we put two full-scale wood 
frame houses into our test chamber and created a highly 
realistic storm with wind speeds and gusts up to 120 miles an 
hour. In this test, as you can see, the roof of one of the 
homes built using conventional constructional practices as they 
exist in central Illinois, where by the way there is no 
statewide building code, lifted off entirely under the force of 
95-mile-an-hour winds. The loss of the roof caused total 
destruction of the home only moments later.
    It is simply inexcusable that we do not ensure that houses 
in areas subject to moderate and severe high wind events, which 
is much of this country, do not have strong connections between 
the walls and the roof, between each floor, and between the 
walls and the foundation. Most of the roofs in this country are 
held on by nothing more than gravity.
    The strapping needed to provide a continuous chain of 
connections from roof to foundation costs less than $1,500 to 
$2,000 for a home or small business, yet greatly increases 
building strength and safety in the face of a variety of wind 
events, including hurricanes, tornadoes and straight line wind 
storms.
    Fortunately, there are States like Florida where this chain 
of connections is an integral part of the building code. A 
continuous load path should be a feature of residential and 
commercial construction everywhere and can be through building 
codes.
    Mr. Chairman, thank you for the opportunity to be here 
today. We urge the subcommittee to advance H.R. 2069. It is 
important legislation that provides a vehicle to put important 
knowledge about proven benefits of building codes to work by 
significantly improving our Nation's safety and resilience.
    Mr. Denham. Thank you.
    Mr. Matthews.
    Mr. Matthews. Chairman Denham, Ranking Member Norton, 
members of the subcommittee, the BuildStrong Coalition thanks 
you for holding this hearing to examine the vital role that 
strong building codes can play in mitigating the damage and 
costs associated with natural disasters.
    My name is Rod Matthews, and I am the property and casualty 
operations vice president for the State Farm Insurance 
Companies based in Bloomington, Illinois.
    State Farm is proud to be a founding member of the 
BuildStrong Coalition, a group of national business and 
consumer organizations, insurance companies, firefighters, 
emergency managers and building professionals dedicated to 
promoting stronger building codes. The BuildStrong Coalition 
shares the subcommittee's goal of helping communities to 
prepare for and recover from natural disasters while saving 
taxpayer money in the process.
    But our fist consideration must always be the safety of our 
communities and the American people. Our thoughts and prayers 
go out to the victims of natural disasters, events which compel 
us to advance legislation to help fortify the Nation's defenses 
against similar events in the future. Stronger, safer homes and 
businesses save lives and better protect people's biggest 
investment.
    Not only is the cost of natural disasters measured in the 
loss of precious lives. It is also measured in the dollar cost 
to our economy. 2011 was the fifth most expensive year on 
record for insured catastrophe losses in the United States. 
Only 50 percent of the almost $73 billion overall cost of 
disasters in the United States in 2011 was covered by 
insurance.
    For decades Congress has authorized insufficient funding 
for disaster relief, and then needed to pass a supplemental 
disaster funds in 18 of the last 23 budget years.
    Natural disasters are inevitable, and while budgeting for 
disaster cost is not a perfect science, the Federal Government 
needs to better plan for the financial impact. Merely hoping 
the weather cooperates and relying on luck is not enough.
    There is overwhelming scientific evidence to support the 
conclusion that minimum statewide building codes save lives and 
greatly reduce property damage and the subsequent need for 
Federal disaster aid. The National Institute of Building 
Sciences found that for every dollar spent to make buildings 
stronger, the American taxpayer saves $4 in Federal disaster 
assistance.
    The Louisiana State University Hurricane Center estimated 
that stronger building codes would have reduced wind damage in 
Louisiana from Katrina by 80 percent, saving $8 billion.
    More recently, FEMA assessed the damage from the 2011 
spring tornadoes in the Southeast and Midwest, identifying 
model building codes as the top recommendation to improve 
public safety. Standardized building codes promote a level and 
consistent playing field for design professionals, suppliers, 
and builders, and create a minimum standard upon which 
consumers can rely.
    To alleviate the financial pressure from natural disasters, 
Congress should encourage building stronger, safer homes and 
businesses. The BuildStrong Coalition strongly endorses H.R. 
2069, the Safe Building Code Incentive Act, as a forward 
thinking investment to build stronger, safer homes and 
businesses that will save lives and reduce damage.
    Under the proposed law, States that adopt and enforce 
nationally recognized model building codes for residential and 
commercial structures would qualify for an additional 4 percent 
of funding available for post disaster grants, which will be 
administered by FEMA through the Stafford Act. Currently about 
20 States would qualify or could with minor changes to their 
laws and regulations.
    This legislation will not require any additional 
appropriation to FEMA since it draws funds from the existing 
Disaster Relief Fund.
    Furthermore, H.R. 2069 does not mandate the adoption of 
statewide building codes by any State that wishes to maintain 
their current patchwork structure.
    Qualifying States have learned the expensive lessons of 
building code effectiveness usually after an ill-prepared 
experience with names, such as Andrew, Katrina, Charlie or 
Northridge. Unfortunately, many States still refuse to adopt 
these minimum standards in building safety, thereby putting 
their citizens' lives and property at higher risk and 
increasing the liability of all U.S. taxpayers.
    A 2012 Milliman study found that H.R. 2069 would have saved 
U.S. taxpayers $11 billion in hurricane relief payments alone 
from 1988 to present had it been in place. That is almost $500 
million a year in taxpayer savings. It is time for our Nation 
to have a long overdue, robust conversation about building 
safety and its intersection with natural disasters.
    This subcommittee can ignite that debate by moving forward 
with consideration of this Safe Building Code Incentive Act. 
The overwhelming evidence supporting the widespread adoption of 
statewide building codes proves that H.R. 2069 is a fiscally 
responsible way to make our country stronger, safer, and better 
prepared for natural disasters.
    We must continue to work together across industries, 
Government agencies and organizations to find better ways to 
protect lives, home, businesses, and personal property. Based 
on scientific data and supported by Federal incentives, we can 
align our efforts to promote modern and effectively enforced 
statewide building codes across our country.
    I look forward to your questions, and thank you for your 
time.
    Mr. Denham. Thank you. Thank you to all of our witnesses 
for your opening testimonies.
    We will now have 5 minutes from each Member for 
questioning. I will start with myself.
    Mr. Matthews, in each of the different States that have 
already implemented their building codes, have you seen a lower 
insurance premium in those States?
    Mr. Matthews. What happens, Congressman and Chairman, is 
that those reduced expenses, lost costs find their ways into 
the rates, and over time that should create a more competitive 
environment. Our industry is highly competitive. There are 
several hundred insurance companies. So the combination of 
reduce lost cost and the competitive environment works to the 
benefit of customers.
    Mr. Denham. And I come from one of those States that has 
quite a few earthquakes. In your testimony, you talk about 
Haiti and the lack of building codes there. Could you go into 
greater detail about some of the impacts and some of the things 
that could have been mitigated or could be mitigated in the 
future if they had a standard building code?
    Mr. Matthews. Yes. Actually, as Ms. Rochman said in her 
testimony, California is one of the better States in terms of 
building codes. Much of the seismic code that you see that has 
been adopted around the country comes out of research and 
experience from the building codes in California.
    California has been a leader around fire protection in 
their codes as well, with residential sprinkler systems as well 
as mitigating the hazard of wildfire, which is a large 
exposure, natural disaster exposure in California.
    So actually, Mr. Chairman, your State has done a very good 
job and it would be one of the States that would already 
qualify for this incentive.
    Mr. Denham. Thank you.
    And, Ms. Rochman, if you could briefly talk about that as 
well as we are very intrigued about your test facility and want 
to take a group of Members down there to see firsthand some of 
the things that you can exemplify with your testing facility. 
If you could, talk about both please.
    Ms. Rochman. Sure, Mr. Chairman. Thank you.
    One of the things that we know from the rash of earthquakes 
that we had last year, not so much the one here, although the 
Washington Monument is truly even today a testimony to the 
power of what even a small earthquake can do; when you look at 
Haiti versus Chile versus Japan and California, we know that 
where there are good, strong seismic codes in place, we see 
much less loss of life and much less damage in property.
    The issue we have in this country is that California is not 
the only State with seismic exposure. There is a substantial 
area in the midwestern part of the country call the New Madrid 
Zone, and the New Madrid Zone has actually experienced 200 
years ago the worst earthquake recorded in the history of this 
country. At that time there was very little population. Now, 
there are about 35 million people living in the New Madrid 
Zone, and those building codes are not what they need to be 
when it comes to residential construction.
    So there are a lot of things we can do. At our facility, we 
look at wind, water, fire, and hail. We do not have a shake 
table. The University of California at San Diego has an 
excellent research facility for earthquake, as does the 
University of Illinois.
    But we would love to have you come down and look. The video 
that I showed a little while ago, the difference between those 
two houses was less than $3,000, and the house that had the 
continuous strapping, again, holding the roof on by more than 
gravity stands strong. We ran that house through several tests 
against houses that were not built as well, that were more 
brittle, and each and every time the house that was not built 
to what it should have been went away.
    And we always look at those houses, even though we are in a 
safe observation area as you could be if you would come to 
watch the test, but it is startling how quickly a house comes 
apart and how it is absolutely reduced to rubble. That is no 
longer somebody's home at that point. It is just a pile of 
debris.
    Mr. Denham. Well, thank you. We look forward to seeing that 
first hand.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    If I am not mistaken, only about a third, and correct me if 
I am wrong, of States seem to have building codes. I am trying 
to understand what it takes particularly given, as you might 
have heard, my disappointment that the incentives bill met a 
roadblock here in the Congress, a technical roadblock.
    Are States that have building codes, those that had been 
disaster prone, flood prone, hurricane prone, those States did 
not have any incentives. How did you discuss the States? Does 
Louisiana now have a statewide building code? Did it have one 
before?
    Ms. Rochman. No.
    Ms. Norton. Uh-oh. Does that tell me that you need a 
disaster in order to get a building code? Would that not be 
terrible?
    Do any of you have any notion of what has encouraged some 
States somehow on their own to adopt building codes and others 
have hung back?
    Mr. Matthews. Congresswoman Norton, I think you have 
touched on one of the things. One of the sad commentaries on 
what we have seen in this field is that many times they are 
very expensive experiences, and they have names called Andrew 
and Northridge and that sort of thing.
    Ms. Norton. And Katrina.
    Mr. Matthews. And Katrina, that convince people to do the 
right thing after the fact.
    You know, what we are really trying to focus with H.R. 2069 
is kind of the old adage of, you know, an ounce of prevention 
is worth a pound of cure. And if you go back and look at what 
Congress has done in 18 out of the last 23 years of having to 
vote supplemental funds for disaster aid, you know, it really 
makes sense that we deal with the issue before it actually 
happens.
    The Milliman study that I referenced, as well, and I 
appreciate what you are saying about the CBO scoring, but the 
Milliman study which showed that actually the Federal 
Government would net $40 million a month, $500 million a year 
from H.R. 2069 in terms of what building stronger, safer homes, 
stronger, safer building codes would mean to our country.
    Ms. Norton. In my experience, you never get legislation 
passed in the Congress by showing dollars and cents saved. I 
mean I have always been amazed at it. It is one of the best 
arguments used, but somehow it does not quite matter. And, of 
course, I thought the incentives might help, and you see the 
problems as you indicated.
    Is there resistance in the States to building codes? Is 
there resistance from--I do not know--industry, from consumers, 
from the States themselves? Is there resistance or simply 
passivity?
    Mr. Matthews. I think in some cases it is probably both, 
Congresswoman. In some cases I do not think people are 
necessarily aware of the exposure and what they are faced with.
    Sometimes there are groups that will vocalize opposition to 
building codes or they think, again, they are lulled into 
complacency thinking it can never happen here, until it 
happens, you know, unfortunately.
    To our knowledge, at least from the BuildStrong Coalition, 
no one has voiced any opposition to H.R. 2069, and it is a very 
broad-based coalition.
    Ms. Rochman. Congressman, if I could just add to that for 1 
second, we know from the insurance industry we have taught 
consumers how to demand safety in automobiles. We have showed 
them what safer vehicles look like, and now consumers shop on 
safety.
    Safety sells. I think one of the things we have to do is 
get citizens to understand that a building code is a minimum 
life safety threshold. It literally keeps the house from 
spontaneously combusting or falling down around your ears. This 
is the minimum level at which you can occupy a building. If 
people understood that the construction was not where it should 
be, we think that they would demand better, safer homes. It is 
one of the reasons the insurance industry built our lab, and we 
are working with home builders and we are working with the 
construction industry.
    Like every industry, there are good actors and people who 
want to do a good jobs, but in this housing market there is an 
increasing number of builders who understand that quality 
construction sells.
    Ms. Norton. Yes. But what I take away is that, you know, 
when you have a big disaster, you get a building code, and that 
really bothers me.
    Could you just call out the names of some of the States 
that have strong building codes so I can get some sense?
    Ms. Rochman. Sure. Well, you are right, Congressman. 
Unfortunately people do wait until disaster. So when Katrina 
hit, for example, Louisiana took 2 years to pass a statewide 
building code.
    Illinois and Texas are States where we have seen a lot of 
catastrophes, and they do not have statewide codes, or they do 
and they are not well enforced. But California, Virginia, South 
Carolina, we do see a number of States increasingly looking at 
codes because it also levels the playing field for all of the 
builders in the States. They all have to comply with the same 
standard.
    But we know that there are about 20 States right now that 
would comply with the legislation as it is written.
    Ms. Norton. Thank you, Mr. Chairman.
    Ms. Norton. Ranking member of the whole committee, Mr. 
Rahall.
    Mr. Rahall. Thank you, Mr. Chairman.
    Mr. Gianato, you have described very well the financial 
losses that our State experienced and many other damages that 
occurred during the recent storms. You have also commended our 
National Guard, and I join you in that. I commend you and your 
staff, as well as our National Guard under the direction of 
Major General Jim Hoyer. I commend our emergency responders, 
our medics, our churches, our local officials, our 911 
directors in each of the counties, our American Red Cross, the 
Salvation Army, AmeriCorps, Vista volunteers, power company 
workers who worked under very strenuous conditions in tough 
terrain carrying heavy equipment to try to repair a lot of the 
power lines, our public service districts, our water companies, 
et cetera.
    Our committee has advanced legislation to reauthorize FEMA 
disaster assistance, including the requirement that FEMA review 
the individual assistance program regulations. Do you think 
that is sufficient or should Congress do more to ensure that 
the program is flexible enough and fast enough, given that many 
families have suffered losses that they cannot afford and no 
Government agency seems able to assist them?
    Mr. Gianato. Congressman, I think you have hit dead on that 
flexibility is the key to any of these programs. No two 
disasters are alike, and when we try to develop rules and 
policies for one disaster to fit another, this latest storm 
that impacted West Virginia, as I said, is not like anything we 
have ever seen, and the impact on the citizens is not like a 
traditional disaster where you can go out and count the number 
of homes, as you said earlier, that are destroyed.
    So I think the key is having the flexibility in the law and 
the open dialogue with FEMA and the administration to be able 
to work through the different problems as we come to them.
    Mr. Rahall. Can you describe how our power companies and 
water companies responded to the extended power outage?
    And how can FEMA mitigation grants be used to prevent a 
recurrence of such an extended power outage periods?
    Mr. Gianato. Well, I think with the power outages we have, 
in my written testimony it talks about there were 226 
transmission lines that were destroyed by this storm, almost 
1.6 million miles of line that were down as a result of the 
storm. Again, this was an unprecedented storm, but I think we 
have to take the steps to minimize the ability of the trees to 
come down on those lines that pulled those down. So those are 
some of the things that we have to look at that are outside the 
FEMA realm.
    As it relates to the water companies, one of the things 
that we are doing in West Virginia is we are partnering with 
the West Virginia National Guard to go out and do assessments 
of every critical facility, which includes the water and sewer 
plants, and we are identifying with those facilities what their 
power generation needs are so that if a situation like this 
were to occur again and those facilities do not have 
generators, that we will have in a couple of secure databases 
the information to allow us to move quickly and place a 
generator on that site.
    I think we need to look at using mitigation funds to 
install generators on some of the critical facilities and look 
at how the programs that we currently have can be utilized and 
look at what changes may need to be made in the future to allow 
that.
    Mr. Rahall. How can we get gas stations to install backup 
generators? That was one of the most shocking facts that came 
out of this recent storm to me, was that gas stations do not 
have backup power generators, and you would think in times of 
emergency that is the first thing you need to keep open, is the 
supply of gas to customers.
    We had the gas. It is just the gas stations did not have 
the power to run those pumps.
    Mr. Gianato. That is correct. The service stations did not 
have power to run their pumps or in a lot of cases even if they 
had power to run their pumps and did not have their other 
systems tied to it, they could not pump gasoline.
    So most of those are privately owned, and that is going to 
be something that we are going to have to work through at the 
State level, and we plan to. If you look at my written 
testimony, it also says that Governor Tomblin has ordered a top 
to bottom review of this event and the impacts that it had and 
how we can minimize some of the issues in the future, and that 
is one of the key things that we are looking at, as well as 
backup power for radio stations because one of the real 
problems that we had, the traditional means of communicating to 
the public that we have always utilized in the past failed. 
When the radio stations and the TV stations went off the air 
without power, it did not matter if citizens had battery 
powered radios. They simply could not get the signal.
    So we have got to go back to the basics.
    Mr. Rahall. Mr. Chairman, I know my time has expired, but 
it looks like there is nobody else waiting to ask questions. 
May I ask one final question?
    Mr. Hanna. [presiding.] Go ahead.
    Mr. Rahall. Thank you.
    And I would give the entire panel a chance to respond to 
anything that has been discussed already, but my question to 
the entire panel would be: do you believe that H.R. 2069 
requires States to adopt entire model building codes, or can 
States pick and choose from certain model provisions?
    Chief Clemmensen. Well, I will start.
    Mr. Rahall. Yes.
    Chief Clemmensen. I do not see it as a mandate whatsoever. 
I know there has been other testimony to that. It is an 
incentive program that I believe will incentivize States to 
adopt these codes. It is just important that there are the 
model codes, which we consider a minimum code.
    Mr. Rahall. I appreciate it. Anyone else wish to respond? 
Ms. Rochman.
    Ms. Rochman. Sir, it is clearly not a mandate. It is 
optional.
    I did want to respond to the Congresswoman's questions and 
just read into the record if it is all right with you, sir----
    Mr. Rahall. Sure.
    Ms. Rochman [continuing]. The States that would currently 
qualify. They would be California, the District of Columbia, 
Florida, Louisiana, Maine, Michigan, Minnesota, New Hampshire, 
New Jersey, New Mexico, New York, Pennsylvania, South Carolina, 
Utah, Virginia, and Washington.
    All of those States would have to do nothing at this point 
to qualify for the extra funds under H.R. 2069.
    Mr. Rahall. Thank you.
    Thank you, Mr. Chairman. Oh, I am sorry. I did not mean to 
cut you off.
    Mr. Berginnis. Oh, I just wanted to also say that, you 
know, something that might be instructional for H.R. 2069 is 
the way the National Flood Insurance Program works. I would 
argue that the NFIP, 21,000 communities in the country have 
building and land use codes. A lot of those do not actually 
have a building code. The only thing they have is the NFIP 
standards.
    It is an incentive program because the incentive is flood 
insurance is available, but there is a powerful disincentive 
tied to that because if flood insurance is not available, a lot 
of folks cannot get mortgages in those flood hazard areas, and 
so while H.R. 2069 does a very good job on the incentives 
portion, we need to make sure that within the array of programs 
that we offer to folks, whether it be post disaster programs 
and others, that there are some disincentives also tied to 
that.
    And I think that gets back to the question of how do we 
have more States and more communities actually then adopting 
these codes. That is a way to do that, by both having 
incentives and disincentives.
    Thank you.
    Mr. Rahall. Thank you.
    I thank the panel. Thank you, Mr. Chairman.
    Mr. Hanna. Thank you.
    Chief Clemmensen, I absolutely believe that you are correct 
when you talk about sprinklers and the benefits of sprinklers. 
One of the problems with an incentive program though is that if 
it is not large enough or that it requires something that is so 
expensive, that what we design as an incentive becomes a 
disincentive as we add more requirements to it.
    So you must have an opinion about that, which I can almost 
guess what it is, but I would like to give you a chance to talk 
about it.
    Chief Clemmensen. Well, it is basically just like any other 
code. There are costs involved, and Congresswoman Norton asked 
about why States do not have model building codes. It is 
because there are lobbyists and people that would rather keep 
the codes very simplified so that the cost of the housing is 
less expensive.
    Fire sprinklers are the same thing. There is a code 
involved, obviously, but the cost is probably the same as 
putting carpeting into your home. However, it does add a bottom 
line cost to the home, and there are homebuilders who would 
prefer to keep that cost down so they can sell more homes.
    Over the long run through, the savings to the municipality 
or to the locals is incredible. As an example, I was the Fire 
Marshal and code official for a large suburban town just 
outside Chicago, and in 1995, we passed a residential sprinkler 
code, and now that area of the community has 4,000 homes that 
are sprinklered. That allowed the community instead of having 
two fire stations to only have one, and that equates to roughly 
$1 million a year.
    So there is a large savings over the long run.
    Mr. Hanna. Sure. But you can see the obvious problem with 
it, whereas with Ms. Rochman's point, where you simply strap 
from the foundation right over the top of the house, I assume 
that is basically what was done there. That is a very cheap, 
very effective tool.
    Incentives are an interesting lever to pull from Government 
because there is a point of diminishing returns and a point at 
which, like with sprinklers, it would ultimately disappear.
    Any other questions?
    Ms. Norton. Thank you very much.
    The chairman has raised a question about cost, and some do 
not cost much, and you might expect the people would step up to 
it. Let me raise again what has happened here, and we have had 
similar things to happen across the country.
    As we go across the country, the manifestations may be 
different, but leave aside the discussion on climate change 
because we do not know why this is happening, but I can tell 
you as a native Washingtonian who grew up in this town when 
there was no air conditioning, we just had the hottest. I am 
glad that if it had to be the hottest, it was not when I was a 
child, that is, now that there is air conditioning.
    But what I really want to get to are the outages, and our 
ranking member, I think, spoke about West Virginia and some of 
what West Virginia went through. This entire region had storms 
the likes of which in this season have never been seen before. 
And, by the way, they keep coming.
    Now, the communities across the region are up in arms about 
outages. The last one was a full week. You can imagine at the 
height of the heat there was no air conditioning. People's food 
melted. So people have some out and said, ``OK. Bury the power 
lines.''
    Well, Mr. Chairman, nobody is going to bury those power 
lines because the same constituents would yell to high heaven 
for the added costs that buried power lines come forward with. 
So, you know, some mitigated understand that and they come and 
say, ``OK. Bury some of them.''
    I have a real question, an honest to goodness practical 
question. What they have done to mitigate, the power companies, 
they have begun to trim the trees. That is pretty obvious. Of 
course, there is some throw-back on that because some people do 
not like the trees trimmed quite as much as they want to, but 
let's take it that everybody agrees that that is a mitigation 
strategy.
    When it comes to these outages, short of burying the lines 
which is cost prohibitive, in addition to trimming the trees, 
what do we do to mitigate another week without power--it could 
have happened here in the Congress, but I guess we would have 
had some backup. Some kind of backup I am sure occurs here--are 
people looking at mitigation in terms of the broader sense of 
that word?
    Sure, building codes are old-fashioned by now, but as you 
meet new and more expensive examples where there appear to be 
no strategies as to what to do to keep us from going through 
this again, my question is whether or not there is research 
being done so that people who honest to goodness would like to 
mitigate against a shutdown of their entire life for a week, 
for example, would go to some extra expense to do so.
    Are we leaving mitigation only with what we already have on 
the table and understand should be done, or is the research 
moving us where differences in climate may be taking us, such 
as when we had an earthquake here?
    I mean, I was sure it was something else. I would have 
thought it would have been a terrorist strike before I would 
have thought it would have been an earthquake. Now, I do not 
think everybody went out and bought earthquake insurance, but 
when you see those kinds of unusual occurrences, I would feel 
more comforted to know that those of you who are concerned with 
mitigation have some word for people trying to prevent these 
new occurrences.
    Does anyone advice for us? Yes, sir.
    Mr. Mullen. Yes. I would say that while I would never kick 
any new research by the curb, I would think that would be 
valuable, but I think we know enough now, and if I may, let me 
tell you where I think there is kind of a contradiction in the 
sense that the best awareness and the best pressure for 
mitigation comes from the Federal grant programs down, and 
mitigation at its core, in my opinion, and I think NEMA 
believes this as well, that mitigation is a local issue which 
people need to embrace at the local level, the local decision 
making and the county planning meetings and those areas. That 
is where the level of knowledge and commitment has to come.
    The Nation has had a pretty good commitment to mitigation. 
There are a lot of people in this town who believe in 
mitigation.
    Ms. Norton. But my question goes to what to do.
    Mr. Mullen. OK.
    Ms. Norton. New kinds of disasters or hazards to be 
mitigated. You know, do you have any examples of what to do 
with these outages which are occurring not only in this region 
but across the United States?
    Is anybody looking into ways to mitigate things like these 
outages or other changes that have not been seen before?
    Mr. Mullen. Yes. In my State we just did a major earthquake 
exercise where the biggest problem we ran into was fuel, the 
same thing that Mr. Gianato was referring to. This was a 
revelation because we had private sector personnel in our EOC 
working with us probably more extensively than ever.
    We have not got the answer, but the question is clear now. 
And I think that a lot of those----
    Ms. Norton. The problem was fuel and what else?
    Mr. Mullen. Fuel for pumps, fuel to just have critical 
vehicles move around. We had a major scenario that broke a lot 
of things, and so for 2 or 3 days we were facing the prospect 
of not being able to do the things that needed to be done for 
life safety, for basic maintenance of life and comfort because 
medicines could not move. And a large part of the problem was 
the absence of fuel generation.
    So what we were trying to do and what we will do as part of 
our followup is begin to look at with our private sector 
partners how are we going to fix that. What is yours and what 
is ours?
    And I think that is the same point I was about to make in 
terms of what the Mitigation Alliance, which ASFPM and us and 
about 18 other organizations are part of, is beginning to look 
at. How do we convince, persuade, cajole, educate people at the 
local level to begin addressing their problems and see if 
between the Federal incentives and push and the local and State 
awareness we can come to some kind of middle ground here where 
everyone is doing what they should be doing, and no one is 
being asked to do more than is appropriate.
    I have not got an answer for you, but I can tell you that 
those discussions in my State and some other States are going 
forward. I am sure they are going forward in West Virginia now. 
Experience teaches us unfortunately. The reason our codes are 
good is because we had earthquakes in the 1960s and people got 
smart.
    But we need to learn from the lessons, and if we do not 
learn our lessons, we will repeat the mistakes.
    Mr. Berginnis. Congressman, one of the things I want to 
mention is that one of the tools that is available now that 
this committee way back in 2000 really set the table for the 
Nation, and that is mitigation planning. There is a requirement 
at the local level and at the State level to update plans 5 
years and 3 years, respectively.
    And in updating those plans, key aspects of that include a 
reanalysis of your hazards. Have they changed? Exactly as you 
talked about, the hazards change over time. They are never 
static, and we need to be prepared to respond and mitigate 
against those. So there is a risk assessment aspect that goes.
    But as important, and maybe this has not been focused on as 
much as it really needs to, and that is an analysis of 
mitigation options. I have gone to so many communities, 
especially after floods in Ohio where they have the ``what 
next'' moment. It is usually right after the event. It is the 
first council meeting that happens, and all of the leadership 
are saying, ``My goodness, what is next? What do we do now?''
    If you have through mitigation planning in a nondisaster 
time identified the range of options that you can mitigate 
against a particular hazard, you are going to be set much more 
effectively in your recovery and ultimately in your resiliency.
    So I would offer that mitigation planning is really an 
effective tool, to answer your very question.
    Thank you.
    Chief Clemmensen. Congresswoman, I would just like to say 
that in the Chicago metro area, they have started a new power 
system called a smart grid. It is too new really to take effect 
yet, but we have always been trimming the trees.
    But to be proactive and the part of the mitigation 
testimony here is that we went out and we have created cooling 
shelters because we know that no matter how smart the grids 
are, how many trees they trim, the power is always going to go 
out.
    We just had an incident last month where over 100,000 
customers were without power. So we set up cooling sites around 
the city and around the suburbs for these people to go to at 
least be cool in these very extreme temperatures.
    Ms. Norton. I thank you for those examples, you know, and 
particularly for the notion of mitigation planning. I had not 
thought about that as a responsibility that the States already 
have. So that one of the things that I am going to do is to go 
back and see if the Federal Government and my own district and 
this region are planning for the next earthquake instead of 
saying, ``Well, that was a once in a century matter. Now let's 
go back to business as usual.''
    So thank you very much for your suggestions.
    Thank you, Mr. Chairman.
    Mr. Hanna. Thank you.
    If there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 
legislative days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    I would like to thank the witnesses once again for your 
time here today and for your service to your communities. If no 
other Members have anything to add, the subcommittee stands 
adjourned.
    [Whereupon, at 11:57 a.m., the subcommittee was adjourned.]

</pre></body></html>
